          AUDIT OF THE OFFICE OF

  COMMUNITY ORIENTED POLICING SERVICES

        TECHNOLOGY PROGRAM AND

       SECURE OUR SCHOOLS GRANTS

AWARDED TO THE WESTLAND POLICE DEPARTMENT

           WESTLAND, MICHIGAN



          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division



         Audit Report GR-50-13-007

                 April 2013

              AUDIT OF THE OFFICE OF

      COMMUNITY ORIENTED POLICING SERVICES

            TECHNOLOGY PROGRAM AND 

           SECURE OUR SCHOOLS GRANTS

    AWARDED TO THE WESTLAND POLICE DEPARTMENT

               WESTLAND, MICHIGAN


                        EXECUTIVE SUMMARY


       The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Technology Program grant number 2010-CK-WX-0055
for $200,000 and Secure Our Schools grant number 2010-CK-WX-0634 for
$109,350 awarded to the Westland, Michigan, Police Department
(Westland PD). The COPS Technology Grant Program is designed to assist in
the continued development of technologies and automated systems that help
tribal, state, and local law enforcement agencies prevent, respond to, and
investigate crime. This funding allows state agencies to purchase technologies
to advance communications interoperability, information sharing, crime
analysis, intelligence gathering, and crime prevention in their communities.
COPS Secure Our Schools grants provide funding to state, local, or tribal
governments working in partnership with public schools to improve school
safety.

       Specifically, the purpose of grant number 2010-CK-WX-0055 was to
assist the Westland PD in purchasing and installing in-car laptop computers
for police cruisers. These computers are designed to aid and assist
Westland PD officers in delivering efficient and systematic community
policing services for the entire city. The purpose of grant number
2010-CK-WX-0634 was to assist the Westland PD and the Wayne-Westland
Community School District to purchase equipment to enhance existing
security or add new security equipment in 11 schools, as well as several
vocational and administrative centers.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) matching
costs, (6) property management, (7) federal financial and progress reports,
(8) program performance and accomplishments, and (9) monitoring
contractors. We determined that indirect costs, program income, and
subgrantees were not applicable to these grants.

      Our audit revealed that the Westland PD generally complied with the
COPS Office’s grant guidelines with respect to internal control environment,
drawdowns, grant expenditures, budget management and control, matching
costs, property management, contractor monitoring, and grant
requirements. However, the Westland PD was late in filing some of its
required financial and progress reports. In addition, although the grants
have ended, the grantee did not expend the entirety of the grant awards.
Thus, the COPS Office should deobligate as funds to better use $41,116 in
unused award monies for the Secure Our Schools grant and $80 in unused
award monies for the Technology grant. Our findings are discussed in the
Findings and Recommendations section of the report. Our audit objective,
scope, and methodology are discussed in Appendix I.




                                    - ii ­
                            TABLE OF CONTENTS



INTRODUCTION........................................................................ 1

     Background.......................................................................... 2

     Our Audit Approach............................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................... 3

     Internal Control Environment ................................................. 3

     Drawdowns .......................................................................... 4

     Matching Costs ..................................................................... 5

     Budget Management and Control ............................................ 5

     Transaction Testing............................................................... 6

     Property Management ........................................................... 7

     Reports ............................................................................... 7

     Program Performance and Accomplishments ...........................10

     Monitoring Contractors .........................................................11

     Views of Responsible Officials ................................................11

     Recommendations ...............................................................12

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ......... 13


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS.... 15


APPENDIX III – AUDITEE RESPONSE ..................................... 16


APPENDIX IV - OFFICE OF COMMUNITY ORIENTED

POLICING SERVICES RESPONSE............................................. 17


APPENDIX V – OFFICE OF THE INSPECTOR GENERAL

ANALYSIS AND SUMMARY OF ACTIONS TAKEN

TO CLOSE THE REPORT ........................................................... 19

                            INTRODUCTION

       The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Technology Program grant number 2010-CK-WX-0055
for $200,000 and COPS Secure Our Schools Program grant number
2010-CK-WX-0634 for $109,350 awarded to the Westland, Michigan, Police
Department (Westland PD). The COPS Technology Program Grant is designed
to assist in the continued development of technologies and automated systems
that help tribal, state, and local law enforcement agencies prevent, respond to,
and investigate crime. This funding allows state agencies to purchase
technologies to advance communications interoperability, information sharing,
crime analysis, intelligence gathering, and crime prevention in their
communities. COPS Secure Our Schools grants provide funding to state, local,
or tribal governments working in partnership with public schools to improve
school safety. Successful programs are based on a comprehensive safety
assessment that identifies the individual needs of the schools, and law
enforcement agencies receiving funding will collaborate with school
administrators, teachers, students, and parents to implement solutions to
school safety challenges.

       Specifically, the purpose of grant number 2010-CK-WX-0055 was to
assist the Westland PD in purchasing and installing in-car laptop computers
for police cruisers. These computers are designed to aid and assist
Westland PD officers in delivering efficient and systematic community
policing services for the entire city. The purpose of grant number
2010-CK-WX-0634 was to assist the Westland PD and the Wayne-Westland
Community School District to purchase equipment to enhance existing
security or add new security equipment in 11 schools and several vocational
and administrative centers.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) matching
costs, (6) property management, (7) federal financial and progress reports,
(8) program performance and accomplishments, and (9) monitoring
contractors. We determined that indirect costs, program income, and
subgrantees were not applicable to these grants. As shown in the following
table, the Westland PD was awarded a total of $309,350 to implement the
grant programs.
               TABLE 1 - WESTLAND POLICE DEPARTMENT

         COPS TECHNOLOGY AND SECURE OUR SCHOOLS GRANTS

                            AWARD      AWARD
        GRANT AWARD                              AWARD AMOUNT
                          START DATE  END DATE

       2010-CK-WX-0055       12/16/09      12/15/12        $200,000

       2010-CK-WX-0634       09/01/10      08/31/12        $109,350
                                               Total:      $309,350
   Source: COPS Office

Background

       The COPS Office is the office of the U.S. Department of Justice that
advances the practice of community policing in America’s state, local and
tribal law enforcement agencies. The COPS Office does its work principally
by sharing information and making grants to police departments around the
United States. Since 1994, the COPS Office has invested nearly $14 billion
to add community policing officers to the nation’s streets, enhance crime
fighting technology, support crime prevention initiatives, and provide
training and technical assistance to help advance community policing.

      The city of Westland, Michigan, is the 10th largest city and the
  th
12 largest municipality in the state of Michigan. It is located 16 miles west
of Detroit, and according to the 2010 census, the population was
84,094. The Westland PD had 76 sworn personnel as of May 2012.

Our Audit Approach

       We tested compliance with the grant conditions primarily using the
criteria contained in the 2010 COPS Technology Program Grant Owner’s
Manual, 2010 COPS Secure Our Schools Grant Owner’s Manual, and grant
award documents.

      In conducting our audit, we performed sample testing in four areas:
(1) drawdowns, (2) grant expenditures, (3) matching costs, and (4) property
management. In addition, we reviewed the timeliness and accuracy of
Federal Financial Reports (FFR) and progress reports, evaluated performance
to the grant objectives, and reviewed the internal controls of the financial
management system. Our audit objective, scope, and methodology are
discussed in Appendix I.




                                    -2­
                  FINDINGS AND RECOMMENDATIONS

      The Westland PD generally complied with the COPS Office’s grant
      guidelines with respect to internal control environment,
      drawdowns, grant expenditures, budget management and
      control, matching costs, property management, contractor
      monitoring, and grant requirements. However, the Westland PD
      filed four of its financial reports and two of its progress reports
      late. In addition, although the grants have ended, the grantee
      did not expend the entirety of its grant funds. Thus, the COPS
      Office should deobligate as funds to better use $41,116 in
      unused award monies for the Secure Our Schools grant and
      $80 in unused award monies for the Technology grant.

Internal Control Environment

       We reviewed the Westland PD’s financial management system,
policies, and procedures to assess its risk of non-compliance with laws,
regulations, guidelines, and terms and conditions of the grants. We also
interviewed individuals who were involved with the grants, such as grant
project management and accounting personnel, and we evaluated grant
management practices to further assess risk.

Single Audit

      Office of Management and Budget (OMB) Circular A-133 requires
grantees to perform a Single Audit if federal expenditures exceed
$500,000 in a year. We determined that the city of Westland (of which the
Westland PD is a part) was required to have a Single Audit performed in
FY 2011, and we reviewed this report. 1

       The Single Audit Report was prepared under the provisions of
OMB Circular A-133. We reviewed the independent auditor’s assessments
and found that the FY 2011 report disclosed one significant deficiency
related to the administration of federal funds. The finding concerned the
city’s failure to submit timely reports to another federal agency. As noted in
the Reports section of this report, our audit also revealed weaknesses in the
grantee’s reporting practices.




      1
          The city of Westland’s fiscal year begins on July 1 and ends on June 30.


                                             -3­
    Financial Management System

          According to the 2010 COPS Technology Program and 2010 Secure
    Our Schools Grant Owner’s Manuals, the Westland PD is required to maintain
    accurate accounting systems that precisely record funds that are awarded
    and disbursed. We did not identify any weakness in the internal controls
    over the Westland PD’s financial management system. We found that there
    was sufficient separation of duties, and the operational procedures were
    documented.

    Drawdowns

          Grant officials stated that drawdowns were based on actual
    expenditures in the accounting records. We reviewed the accounting
    records, compared expenditures to the drawdowns, and confirmed that the
    drawdowns matched the posted expenditures.

                 TABLE 2 - DRAWDOWNS VERSUS ACCOUNTING RECORDS
                     AMOUNT          GRANT           DIFFERENCE BETWEEN   CUMULATIVE    CUMULATIVE
   DATE OF           DRAWN        EXPENDITURES        DRAWDOWNS AND       DRAWDOWNS    EXPENDITURES
 DRAWDOWN            PER THE           PER             EXPENDITURES IN      PER THE        PER
PER THECOPS           COPS         ACCOUNTING            ACCOUNTING         COPS       ACCOUNTING
   OFFICE            OFFICE         RECORDS               RECORDS           OFFICE      RECORDS
                                   COPS TECHNOLOGY PROGRAM GRANT

 09/15/2011           $199,920      $199,920                $0             $199,920     $199,920
                                    COPS SECURE OUR SCHOOLS GRANT

 09/22/2011            $14,478       $14,978               ($500)          $14,478       $14,978

 11/01/2011             $1,050         $550                $500            $15,528       $15,528

  05/14/2012       $579           $579 2              $0             $16,107             $16,107
Source: Westland PD accounting records & COPS Office drawdown records

          Subsequent to our fieldwork, during the remaining months of the grant
    period, the Westland PD drew down an additional $52,127 in grant funds
    from its Secure Our Schools grant. In total, the Westland PD drew down
    $68,234 in grant funds from its Secure Our Schools grant, leaving
    $41,116 in grant funds unused at the end of the grant. In addition, there
    was $80 remaining available in the Technology grant. Both grants ended in
    calendar year 2012, and the grantee reported to the COPS Office that it had
    completed its grant drawdowns. We recommend that the COPS Office


             2
                 This amount is as of May 3, 2012.


                                                     -4­
deobligate as funds to better use the remaining $41,116 in unused monies
from the Secure Our Schools grant and the $80 in the Technology grant.

Matching Costs

       There was no match requirement for the COPS Technology Program
grant. However, under the COPS Secure Our Schools grant, the
Westland PD was required to provide $109,350 in local matching funds,
which represents 50 percent of the total project budget of $218,700. At the
time of our fieldwork, the Westland PD had contributed $16,107 in match,
which represents 50 percent of the total $32,214 in grant expenditures
recorded at that time. We reviewed four matching transactions to determine
if they were allowable and properly supported and found no discrepancies.
The Westland PD was meeting its match requirement by paying a portion of
the contractor billings and equipment costs for the Secure Our Schools
project.

Budget Management and Control

       For the COPS Technology Program grant, the grant award’s total
project costs were identified as $200,000. The Westland PD’s budget for the
COPS Technology Program grant contained two budget categories,
“equipment” and “other costs,” to purchase 37 in-car computer terminals.
The bulk of the budget was for the purchase of equipment. The “other
costs” were defined as the labor and parts needed to remove the existing
outdated computers and install the new computers into the patrol cars. It
should be noted that when applying for the grant, the Westland PD
estimated a cost of $211 per vehicle to cover this removal and installation.
The invoice provided by the contractor did not itemize the cost of
installation. However, as shown in Table 3, the total costs for equipment
and installation came in under budget. Therefore, the Westland PD found it
unnecessary to draw down the remaining funds.

      For the COPS Secure Our Schools grant, the grant award’s total
project costs were identified as $218,700, which included a 50-percent
match on the grantee’s part for $109,350. The Westland PD’s budget for the
COPS Secure Our Schools grant contained two budget categories,
“equipment” and “contractors/consultants,” to purchase equipment to
improve the physical security and safety of several schools and
administrative buildings in Westland, Michigan. The bulk of the budget was
for the purchase of equipment. The grantee explained that the
“contractors/consultants” portion of the budget was for consulting with an
external security company to conduct a safety assessment to assist in
determining program goals and progress. In addition, this cost category


                                   -5­
includes the Westland PD’s contract with an architecture firm to oversee the
purchase and installation of all security enhancements identified by the
safety assessment. Additional information regarding the contractors can be
found in the Monitoring Contractors section of this report.

       We assessed the grantee’s expenditures in the budget categories, and
we determined that the Westland PD adhered to the grants’ requirements to
spend grant funds within the approved budget categories. The following
table identifies each of the budget categories and the amount that the
Westland PD had spent, excluding its portion of expenditures identified as
matching funds, as of our fieldwork in May 2012.

                                  TABLE 3

                      BUDGET MANAGEMENT AND CONTROL

                              AS OF MAY 2012

                                              GRANT
                        COST CATEGORY        BUDGET     ACTUAL COST
                             COPS TECHNOLOGY PROGRAM GRANT

                   Equipment                        $192,193        $199,920 3

                   Other Costs                        $7,807                $0

                   TOTAL                           $200,000         $199,920
                               COPS SECURE OUR SCHOOLS GRANT

                   Equipment                         $94,350           $9,704

                   Contractors/Consultants           $15,000           $6,403

                   TOTAL                           $109,350          $16,107
                 Source: COPS Office and Westland PD Accounting Records

Transaction Testing

       We reviewed the general ledger account designated for the grants and
found there was only one transaction for the COPS Technology Program
grant totaling $199,920 in April 2011. In addition, there were four
transactions for the COPS Secure Our Schools grant totaling $32,214 from
April 2011 through December 2011, which included the matching costs of
$16,107. At the time of our fieldwork in May 2012, this was the entirety of
all grant funds spent. Therefore, we elected to test all transactions that had


       3
          This is the amount billed to the grantee by the contractor. After reviewing the
invoice, the contractor did not itemize the cost of installation (Other Costs) on the invoice.
Therefore, the costs originally budgeted as “other costs” are included in the equipment
category.


                                              -6­
taken place up until that point for a total dollar amount of $232,134. We
found that the expenditures we reviewed were properly authorized,
classified, supported, and charged to the grants.

Property Management

     Both the 2010 COPS Technology Program and 2010 COPS Secure Our
Schools Grant Owner’s Manuals require grantees to implement controls to
ensure property and equipment purchased with federal funds are properly
safeguarded against loss from unauthorized use or disposition.

       For both grants, nearly all of the grant funds were allocated for the
purchase of equipment. For the COPS Technology Program grant, we
randomly selected 13 of 37 laptops to compare the property inventory
records to the property serial numbers. We observed laptops that were
installed in Westland PD squad cars, as well as spares, which were kept in a
storage closet at the police station in their original packaging. For the COPS
Secure Our Schools grant, we randomly selected three school locations to
review newly installed security equipment. We found that the equipment
matched the location-specific inventory provided to the audit team. We
found no material discrepancies with the property records or their
management for either grant.

Reports

      According to the COPS Office’s guidelines, award recipients are
required to submit both financial and program progress reports. These
reports describe the status of the funds and the project, compare actual
accomplishments to the objectives, and report other pertinent information.
We reviewed Federal Financial Reports (FFR) and annual Progress Reports
submitted as of May 2012 for both audited grants.

Federal Financial Reports

       The COPS Office requires that grantees submit FFRs no later than
30 days after the end of each quarter. We reviewed six required FFRs
submitted - two FFRs for the COPS Technology Program grant and four FFRs
for the Secure Our Schools grant. We identified a total of four reports that
were not submitted on time. As shown in Table 4, the grantee submitted
the first required report for both grants 45 days late. A Westland PD official
explained that the reason for this delay was that the computers were
delivered and installed over time, and the Westland PD had not yet drawn
down grant funds. However, grantees are still required to submit FFRs even
when there is no activity. The Westland PD also filed two other FFRs late.


                                     -7­
Westland PD officials attributed these report submission delays to two
factors: (1) a staff shortage in the Finance Office, and (2) problems logging
into the reports submission website due to a lost or forgotten password.
According to Westland PD officials, they have recently filled all open
positions, and they believe all password issues have been rectified.

            TABLE 4 - FEDERAL FINANCIAL REPORT HISTORY
            REPORT PERIOD            FFR DUE
           FROM - TO DATES            DATES         DATE SUBMITTED       DAYS LATE
                             COPS TECHNOLOGY PROGRAM GRANT
     04/01/2011 - 06/30/2011       07/30/2011         09/13/2011             45
                                                                   4
     07/01/2011 - 09/30/2011       10/30/2011         10/26/2011              0
                             COPS SECURE OUR SCHOOLS GRANT
     04/01/2011 - 06/30/2011       07/30/2011         09/13/2011             45
     07/01/2011 - 09/30/2011       10/30/2011         10/26/2011              0
     10/01/2011 - 12/31/2011       01/30/2012         01/31/2012              1
     01/01/2012 - 03/31/2012       04/30/2012         05/10/2012             10
     Source: COPS Office

      We also reviewed the FFRs for accuracy, as shown in Table 5. We
found that the Westland PD reported its expenditures accurately for its COPS
Technology Program grant. However, we found that for the Secure Our
Schools grant, the Westland PD did not accurately report its grant-related
expenditures on any of the four FFRs we reviewed. As shown in Table 5, by
the time the March 2012 report was submitted, the cumulative expenditures
reported on the FFR reconciled to the amount recorded in the accounting
records as of the same date.




     4
         This report was marked as “final” and no subsequent reports were required.


                                           -8­
              TABLE 5 - FEDERAL FINANCIAL REPORT ACCURACY

                                                   GRANT FUNDS
                                  GRANT FUNDS      EXPENDED PER     DIFFERENCE BETWEEN
            REPORT PERIOD        EXPENDITURES       ACCOUNTING      FFRS & ACCOUNTING
           FROM - TO DATES          PER FFR          RECORDS 5           RECORDS
                              COPS TECHNOLOGY PROGRAM GRANT
   04/01/2011 - 06/30/2011             $0                 $0                 $0
   07/01/2011 - 09/30/2011         $199,920            $199,920              $0
                Total             $199,920             $199,920              $0
                             COPS SECURE OUR SCHOOLS GRANT
   04/01/2011 - 06/30/2011             $0              $14,978            $14,978
   07/01/2011 - 09/30/2011         $15,528              $1,100           ($14,428)
   10/01/2011 - 12/31/2011            $579               $608               $29
   01/01/2012 - 03/31/2012             $0               ($579)             ($579)
                Total              $16,107             $16,107               $0
     Source: COPS Office and Westland PD accounting records

Program Progress Reports

      According to the COPS Office’s guidelines, progress reports are due
annually to the COPS Office by March 15. We reviewed two submitted
progress reports and found that both of the reports were submitted late. 6
Westland PD officials cited the same reasons noted previously with the late
submission of FFRs and said that they had recently filled all open positions
and addressed all password issues. The reports we reviewed appeared to be
acceptable in form and content. The format of the reports is structured
principally as a survey, whereby the grantee can rate a series of program
performance statements on a scale of 1 to 10. The reports we reviewed
were complete and appeared relevant to performance of the grant-funded
programs.
                        TABLE 6 - PROGRESS REPORT HISTORY
                 REPORT PERIOD                              DATE
                FROM - TO DATES             DUE DATE      SUBMITTED     DAYS LATE
            01/01/2010 - 12/31/2010     01/30/2011        02/15/2011        16
            01/01/2011 - 12/31/2011     01/30/2012        02/02/2012         3
           Source: COPS Office




       5
        The Secure Our Schools expenditures in this chart include only those of actual grant
funds. Match is not included.
       6
         The progress reports provided by the COPS Office are designed to allow grantees
with multiple grants to report their progress within the same report document.


                                             -9­
       As noted previously, the grantee has reported to the COPS Office that
it has completed its activities on the audited grants. We have not made any
recommendations related to the grantee’s reporting activities because no
additional reports are due.

Program Performance and Accomplishments

      According to the grant application, the purpose of the COPS
Technology Program grant was to increase the effectiveness and enhance
the communication of the Westland PD by purchasing 37 laptop computers.
According to the grantee, the new laptop computers are faster, more rugged
and reliable, and include the latest technology that allows the Westland PD
to communicate with its law enforcement partners.

       The conditions of the grant required the grantee to seek approval from
the COPS Office in order to use a sole source to purchase the computers
without placing the order up for competitive bidding. The Westland PD
requested and received sole-source approval with the justification that a
local vendor would provide installation and maintenance for 5 years.
Through interviews with grantee officials and review of supporting
documents provided, we were able to confirm that the goals and objectives
of the COPS Technology Program grant have been accomplished.

      Regarding the COPS Secure Our Schools grant, the purpose of the
grant was to:

     •	 Conduct a thorough safety assessment of current school safety
        requirements with input from police, school staff, parents, students,
        and other community members about suggested security
        improvements.

     •	 Use assessment results to coordinate implementation of identified
        security improvements for the length of the grant period.

     •	 Use assessment results to provide enhanced security and protection
        to the main entrances into all school locations, as well as identify
        and equip secondary doorways in need of advanced security
        equipment such as motion-sensitive lighting.

     •	 Through discussion about and reviews of assessment results,
        expand the functioning of the security camera system used in and
        around all facilities. If needed, purchase and install software that



                                   - 10 ­
         improves system functionality and upgrade servers by increasing
         data storage capacity.

      •	 Improve notifications to students, staff, and community members
         during emergencies. Pinpoint potential "hot spots,” both within the
         buildings and into the extended community, that exist in the
         current notification systems. Use assessment results to assist in
         the placement of an effective ancillary system to be used during
         lock-down training and emergencies.

       Through interviews with appropriate officials, review of supporting
documents, and inspection of currently installed security enhancements, we
were able to confirm the goals and objectives of the COPS Secure Our
Schools grant were actively being accomplished. The Westland PD
coordinated with a local security consulting company to conduct and
implement its safety assessment, the results of which lead to a clear plan of
location-specific equipment purchases and installations for areas of greatest
concern.

Monitoring Contractors

       The Westland PD did not utilize contractors to achieve the goals set
forth in its COPS Technology Program grant. However, for the COPS Secure
Our Schools grant, the Westland PD utilized a contractor to conduct a
security assessment and install necessary security equipment in certain
Westland schools. The Westland PD employed an architecture firm, which
had previously been used by the Wayne-Westland Community School District
for building projects, to oversee the work of the security contractor. The
architecture firm worked in tandem with the district’s Director of
Maintenance to oversee the installation of the security equipment by the
contractor. In addition, the security contractor only received payment after
providing documentation to support that the work was complete. We believe
that the actions taken to oversee the contractor in the Secure Our Schools
grant were sufficient and in accordance with the grant’s conditions.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.




                                    - 11 ­
Recommendations

    We recommend that the COPS Office:

    1. Deobligate and put to better use the $41,116 remaining grant
       balance for expired award 2010-CK-WX-0634 and the
       $80 remaining grant balance for expired award 2010-CK-WX-0055.




                               - 12 ­
   APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) matching
costs, (6) property management, (7) federal financial and progress reports,
(8) program performance and accomplishments, and (9) monitoring
contractors. We determined that indirect costs, program income, and
subgrantees were not applicable to these grants.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. This was an audit of the Westland PD’s COPS Technology
Program grant number 2010-CK-WX-0055 and COPS Secure Ours Schools
grant number 2010-CK-WX-0634. Our audit concentrated on, but was
not limited to, the award of the grants on December 16, 2009, and
September 1, 2010, respectively, through our fieldwork in May 2012. The
Westland PD had a total of $216,027 in drawdowns through May 2012.

      We tested compliance with what we consider the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the 2010 COPS Technology Program and
2010 COPS Secure Our Schools Grant Owner’s Manuals and the award
documents.

       In conducting our audit, we performed testing in four areas:
(1) drawdowns, (2) grant expenditures, (3) matching costs, and (4) property
management. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. We selected five transactions
charged to the grant for a total dollar amount of $232,134 from March 2011
through December 2011. This sample accounts for all transactions up to the
point of our fieldwork.

      In addition, we reviewed the timeliness and accuracy of FFRs and
Progress Reports, and we evaluated performance as it related to the grants’


                                    - 13 ­
objectives. However, we did not test the reliability of the financial
management system as a whole.




                                     - 14 ­
APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS


FUNDS TO BETTER USE                                                  AMOUNT          PAGE


Undrawn grant funds after Secure Our Schools
                                                                        41,116          4
grant project period ended

Undrawn grant funds after Technology grant
                                                                              80        4
project period ended


                 TOTAL FUNDS TO BETTER USE                            $41,196



   TOTAL NET DOLLAR-RELATED FINDINGS                                  $41,196




___________________

Funds to Better Use are future funds that could be used more efficiently if management took
actions to implement and complete audit recommendations.




                                          - 15 ­
              APPENDIX III – AUDITEE RESPONSE

     The Westland PD stated that it has reviewed the draft audit report and
does not have any comments.




                                   - 16 ­
APPENDIX IV - OFFICE OF COMMUNITY ORIENTED

       POLICING SERVICES RESPONSE


                  U.S. DEPARTMENT OF JUSTICE
                  OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
                  Grant Operations Directorate/Audit Liaison Division
                                                                           COPS
                  145 N Street, N.E., Washington, DC 20530



 Via Electronic

 To:	          CaroI S. Taraszka
               Regional Audit Manager
               Office of the Inspector General
               Chicago Regional Audit Office

 From:	        Donald J. Lango                  ""\ _
                                                   '
               Management Analyst/Audit Liaison\'Q
               Audit Liaison Division

 Date:	        April 11, 2013

 Subject:	     Response to Draft Audit Report and request for closure for the Westland Police
               department, in Westland, Michigan

 This memorandum is in response to your March 26, 2013, draft audit report for the Westland Police
 department, in Westland, Michigan. The draft report included one audit recommendation that was
 directed to COPS.

 Recommendation 1: Deobligate and put to better use the $41,116 remaining grant balance
 for expired award 2010-CK-WX-0634 and the $80 remaining grant balance for expired
 award 2010-CK-WX-0055.

 The COPS Office concurs with the recommendation.

 Discussion and Action:
 We request that the COPS Finance Staff deobligate the $41,116 remaining grant balance for
 expired award 2010-CK-WX-0634 and the $80 remaining grant balance for expired award 2010­
 CK-WX-0055. COPS Finance has advised us that it has deobligated the funds and provided a
 Deobligation Certification Report for each grant. We have included an attachment which contains:
 •	 ALD's request to the COPS Administration Division to deobligate the funds in question for
    grant #2010-CK-WX-0634 (in the amount of$41,116.27), and grant #2010-CK-WX-0055
    (in the amount of $79.75),
 •	 Payment History Reports for each grant (pre-deobligation), and the
 •	 Deobligation Certification Reports for each grant.

 Request:
 Based on the documentation provided, COPS requests resolution of Recommendation 1 and
 closure of the Audit Report.




  ADVANCING PUBLIC SAFETY THROUGH COMMUNITY POLICING




                                                   - 17 ­
Carol S. Taraszka, Regional Audit Manager
April 11, 2013
Page2


If you have any questions, please contact me at 202-616-9215, or you may email at
donald.lango@usdoj.gov.


cc:    provided electronically

       Louise M. Duhamel, Ph. D.,

       Acting Director, Audit Liaison Group

       Justice Management Division

       alo@usdoj gov


       Mary T. Myers

       Audit Liaison Group

       Justice Management Division

       alo@usdoj.gov

       Marcia Samuels-Campbell

       Assistant Director, Grant Monitoring Division

       Office of Community Oriented Policing Services


        George Gibmeyer

        Supervisory Grant Monitoring Specialist, Grant Monitoring Division

        Office of Community Oriented Policing Services


        Raymond Reid, Grant Program Specialist
        Grant Administration Division

        Office of Community Oriented Policing Services


        William R. Wild, Mayor

        City of Westland

        36601 Ford Road

        Westland, Michigan 48185


        Jeff Jedrusik, Chief

        Westland Police Department

        36701 Ford Road

        Westland, Michigan 48185


        Grant File:    2010CKWX0055         201OCKWX0634

        Audit File

        ORI: MI82817


ADVANCING PUBLIC SAFETY THROUGH COMMUNITY POLICING




                                            - 18 ­
    APPENDIX V – OFFICE OF THE INSPECTOR GENERAL

      ANALYSIS AND SUMMARY OF ACTIONS TAKEN

                 TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Westland PD and
the COPS Office. The Westland PD declined to provide a response, and the
COPS Office’s response is incorporated in Appendix IV of this final report.
The following provides the OIG analysis of the COPS Office’s response and
the actions taken to close the report.

Recommendation Number:

  1. Closed. The COPS Office concurred with our recommendation to
     deobligate and put to better use the $41,116 remaining grant balance
     for expired award 2010-CK-WX-0634 and the $80 remaining grant
     balance for expired award 2010-CK-WX-0055.

     In its response to the draft report, the COPS Office provided evidence
     the remaining grant funds for each of the aforementioned COPS grants
     have been deobligated. We reviewed this documentation and
     determined that it is sufficient to close this recommendation.
     Therefore, this recommendation is closed.




                                   - 19 ­
